HHS/OIG-Audit--"Infusion Therapy Services Provided in Skilled Nursing Facilities, (A-06-99-00058)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Infusion Therapy Services Provided in Skilled Nursing Facilities," (A-06-99-00058)
December 13, 1999
Complete
Text of Report is available in PDF format (1.4 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that infusion services provided in 22 skilled nursing
facilities (SNFs) were often unnecessary, overpriced, and/or misclassified on SNF
cost reports. As a result, the 22 SNFs were reimbursed unallowable costs totaling
approximately $5.3 million ($4.8 million for services not medically necessary)
out of $9 million claimed during 1995 through 1998. The primary problem was the
old retrospective reasonable cost-based reimbursement system which was vulnerable
to abusive billing schemes. Currently, SNFs are paid under a prospective payment
system (PPS). We recommended that the Health Care Financing Administration (HCFA)
consider the impact of improper payments for infusion therapy services before making
any refinements or updates to the SNF prospective payment rates. We also recommended
that HCFA identify and recover overpayments which were made to SNFs for unnecessary
and overpriced infusion services prior to the adoption of PPS, and direct its contractors
to perform medical reviews of selected SNF patients to ensure that patients are
receiving appropriate levels of infusion therapy. The HCFA generally agreed with
our recommendations.